           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        SINGLE AUDIT OF THE
   COMMONWEALTH OF PUERTO RICO
     DEPARTMENT OF THE FAMILY
        FOR THE FISCAL YEAR
         ENDED JUNE 30, 2010

     September 2012   A-77-12-00012



  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      September 11, 2012                                           Refer To:

To:        Amy Thompson
           Senior Advisor
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico
           Department of the Family for the Fiscal Year Ended June 30, 2010 (A-77-12-00012)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Puerto Rico Department of the Family for the Fiscal Year
           ended June 30, 2010. 1 Our objective was to report internal control weaknesses,
           noncompliance issues, and unallowable costs identified in the single audit to SSA for
           resolution action.

           Aquino, DeCordova, Alfaro & Co., LLP performed the audit. We have not received the
           results of the desk review conducted by the United States Department of Agriculture
           (USDA). We will notify you when the results are received if USDA determines the audit
           did not meet Federal requirements. In reporting the results of the single audit, we relied
           entirely on the internal control and compliance work performed by the Aquino,
           DeCordova, Alfaro & Co., LLP and the reviews performed by USDA. We conducted our
           review in accordance with the Council of the Inspectors General on Integrity and
           Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) program is identified by CFDA number 96. SSA is responsible for
           resolving single audit findings reported under this CFDA number.

           The Puerto Rico Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI program in accordance with Federal regulations. The
           DDS is reimbursed for 100 percent of allowable costs. The Puerto Rico Department of
           the Family (PRDF) is the Puerto Rico DDS’ parent agency.
           The single audit reported PRDF:


           1
            Aquino, De Cordova, Alfaro & Co., LLP, Commonwealth of Puerto Rico Department of the Family Single
           Audit Report Fiscal Year Ended June 30, 2010.
Page 2 – Amy Thompson


•   Did not have adequate documentation to support payroll costs claimed for Federal
    reimbursement as required by OMB Circular A-87. The corrective action plan
    indicated a strategy for compliance with OMB Circular A-87 began in December
    2010. 2

•   Submitted expenditures and obligations to SSA on the State Agency Report of
    Obligations on the SSA Disability Programs (Form SSA-4513) that did not agree with
    the amounts recorded in PRDF’s accounting records. The corrective action plan
    indicated procedures are in place to ensure that all of the obligations at the closing
    date of the reports are included. 3

We made recommendations to SSA in prior reports for corrective action on these two
findings. 4 SSA has not provided us with documentation showing that corrective action
was taken on these prior findings. Therefore, we again recommend SSA:

1. Ensure the Puerto Rico DDS maintains documentation to support payroll costs
   charged to SSA.

2. Determine if the inaccurate reporting of expenditures on the Form SSA-4513
   resulted in inappropriate reimbursements to the Puerto Rico DDS and, if so, request
   the return of any inappropriate reimbursements.

In addition, the single audit reported PRDF:

•   Had deficient accounting policies, procedures, and financial reporting practices
    including a lack of self-balancing accounts, inappropriate and/or incomplete monthly
    and year-end cut-off and closing procedures, and inappropriate and/or incomplete
    budgeting control between grants award distribution and programmatic activities
    allocations. The corrective action plan indicated a Manual of Procedures and
    Functions has been created for the implementation of the accounting and financial
    management system. 5




2
 Aquino, De Cordova, Alfaro & Co., LLP, Commonwealth of Puerto Rico Department of the Family Single
Audit Report Fiscal Year Ended June 30, 2010, finding 2010-02.
3
 Aquino, De Cordova, Alfaro & Co., LLP, Commonwealth of Puerto Rico Department of the Family Single
Audit Report Fiscal Year Ended June 30, 2010, finding 2010-18.
4
 Management Advisor Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2008 (A-77-11-00012), issued June 14, 2011 and
Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2009 (A-77-11-00013), issued July 6, 2011.
5
 Aquino, De Cordova, Alfaro & Co., LLP, Commonwealth of Puerto Rico Department of the Family Single
Audit Report Fiscal Year Ended June 30, 2010, finding 2010-01.
Page 3 – Amy Thompson


•   Did not have adequate procedures and controls over the timing of cash draws for
    SSA’s disability program. The corrective action plan indicated existing written
    procedures regarding the proper authorization and processing of Federal
    drawdowns will be reviewed with existing and new personnel. 6

We made recommendations to SSA in prior reports for corrective action on these two
findings. 7 We confirmed that SSA took appropriate corrective actions to address these
findings. Therefore, we will not repeat the recommendations in this report.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                             Patrick P. O’Carroll, Jr.

cc:
Lynn Bernstein




6
 Aquino, De Cordova, Alfaro & Co., LLP, Commonwealth of Puerto Rico Department of the Family Single
Audit Report Fiscal Year Ended June 30, 2010, finding 2010-03.
7
 Management Advisor Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2006 (A-77-09-00011), issued August 5, 2009 and
Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2007 (A-77-09-00012), issued August 20, 2009.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
